<html>
<title> - THE LIBERATION OF IRAQ: A PROGRESS REPORT</title>
<body><pre>[Senate Hearing 106-824]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-824

 
                THE LIBERATION OF IRAQ: A PROGRESS REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 28, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
68-120 CC                   WASHINGTON : 2000




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas, opening statement.     3
Chalabi, Dr. Ahmad, member of the Presidency Council, Iraqi 
  National Council, London, England..............................     8
    Prepared statement...........................................    11
Perle, Hon. Richard N., former Assistant Secretary of Defense for 
  International Security, Washington, DC.........................     3

                                 (iii)


  

 
               THE LIBERATION OF IRAQ: A PROGRESS REPORT

                              ----------                              


                        WEDNESDAY, JUNE 28, 2000

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:10 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senator Brownback.
    Senator Brownback. The hearing will come to order. Mr. 
Perle, Dr. Chalabi, delighted to have you here. Welcome to both 
of you. We are very pleased to see both of you here to review 
U.S. policy toward Iraq, and in particular to review the 
Clinton-Gore administration's progress in implementing the Iraq 
Liberation Act.
    As we have done this drill several times before, I think 
you will have some idea just how I feel about the 
administration's commitment to liberating Iraq. To put it as 
straightforwardly as possible, I cannot understand why 
President Clinton signed the Iraq Liberation Act when he had 
absolutely no intent of implementing the provisions of the law.
    It is hard for me to figure out why administration 
officials, from President Clinton and Vice President Gore on 
down, keep insisting they are interested in ousting Saddam, and 
yet not one official of this administration has been willing to 
take even the most minimal steps toward that end.
    Let me just review what the Congress, with complete 
bipartisanship--and I emphasize that, complete bipartisanship--
has done trying to press forward on Iraq policy. Since 1998, I 
count nine House or Senate resolutions calling for democracy in 
Iraq, nine promoting a war crimes tribunal for Iraq, demanding 
compliance with U.N. resolutions.
    We have authorized tens of millions of dollars to support 
war crimes research and for the opposition. The only arguments 
we have had are over how more can be done to promote the 
overthrow of Saddam and bring him and his cronies to justice. 
That is the only debate or argument we have had here, is how 
more, or what else we could do.
    As far as the administration is concerned, in the last 2 
years alone the Clinton-Gore team has presided over the 
abolition of UNSCOM, the end of the sanctions review for a 
significant number of products imported into Iraq, and a 
staggering--a staggering erosion of international support for 
isolating the Saddam Hussein regime.
    This is not a complex matter, but the Clinton 
administration has been unable to explain why it is imperative 
that sanctions remain on Iraq, failed to explain that. They 
have failed to remind the world at large that Saddam Hussein 
has killed tens of thousands of his own people, and that it is 
his choice, and his choice alone, whether sanctions are lifted. 
That is up to Saddam Hussein. They seem to forget that Saddam's 
devotion to amassing weapons of mass destruction is the only 
remaining obstacle to Iraq's rehabilitation. That is it.
    As far as the opposition is concerned, the administration 
has disbursed approximately $20,000, and I want to emphasize 
that. The administration has disbursed approximately $20,000 of 
the $97 million in available funds under the Iraq Liberation 
Act [ILA]. I guess that is for a few fax machines, I am not 
sure. Of $10 million appropriated for the opposition and for 
the prosecution of war crimes in fiscal year 2000, nothing--
nothing has been spent.
    On Monday, representatives from the Iraq National Congress, 
which we will hear from today, have advised President Gore. 
Miraculously, on Tuesday the administration announced that 140 
Iraqi National Congress [INC] men would be trained under the 
ILA. Now, I am not sure trained for what. I hope we can hear a 
little bit about that today exactly whether it is going to be 
trained on how to use those fax machines, or if it is going to 
be on other things.
    They also announced they would support an amendment we have 
in this year's foreign operations appropriations bill giving 
$15 million to the INC for humanitarian deliveries into Iraq. 
This is the first time since the signature of the Iraq 
Liberation Act that we have seen someone in this administration 
galvanized to do something for the opposition.
    The usual routine we hear in Congress is cannot do it, will 
not do it, do not want to do it, do not like them anyway. Most 
memorably, General Zinni, soon to be former Commander of 
CENTCOM, announced that the Congress was, quote, in his words 
``stupid to support the opposition.''
    Either Saddam is a long-term threat or he is not. If he is, 
then we must do something. Short of invading Iraq once again, 
we must support the opposition. The opposition is not a group 
of Boy Scouts, nor is it a group of Jeffersonian Democrats. It 
is an agglomeration of very different people and different 
groups who have been crushed under Saddam Hussein for decades. 
They are the people willing to work with the United States to 
overthrow Saddam Hussein. They are the people with the courage 
to come to us. They have been treated with complete contempt by 
this administration.
    To date, the Vice President has done nothing for this 
group. Maybe this meeting will mark a turning point. I hope so. 
Maybe it is just politics as usual. We will find out soon.
    I am pleased again to have both of you here. I hope we can 
get some further illumination from the meeting with the Vice 
President, and some of your thoughts on this, Mr. Perle, as to 
what is taking place in the administration and what needs to 
take place, and what possibly might occur under future 
administrations.

               Opening Statement of Senator Sam Brownback

    I cannot understand why President Clinton signed the Iraq 
Liberation Act when he had absolutely no intention of implementing the 
provisions of that law. It is hard for me to figure out why 
administration officials from Clinton and Gore on down keep insisting 
that they are interested in ousting Saddam, and yet not one official of 
this administration has been willing to take even the most minimal step 
toward that end.
    Let me just review what the Congress--with complete 
bipartisanship--has done in trying to press forward an Iraq policy: 
Since 1998, I count nine House or Senate resolutions calling for 
democracy in Iraq, promoting a war crimes tribunal for Iraq, demanding 
compliance with U.N. resolutions. We have authorized tens of millions 
of dollars to support war crimes research and for the opposition.
    As far as the administration is concerned, in the last two years 
alone, the Clinton-Gore team has presided over the abolition of UNSCOM, 
the end of the sanctions review for a significant number of products 
imported into Iraq, and a staggering erosion of international support 
for isolating the Saddam Hussein regime.
    This is not a complex matter, but the Clinton administration has 
failed to explain why it is imperative that sanctions remain on Iraq. 
They have failed to remind the world at large that Saddam Hussein has 
killed tens of thousands of his own people, and that it is his choice 
and his choice alone whether sanctions are lifted. They seem to forget 
that Saddam's devotion to amassing weapons of mass destruction is the 
only remaining obstacle to Iraq's rehabilitation.
    As far as the opposition is concerned, the administration has 
disbursed approximately $20,000 of $97 million in available funds under 
the Iraq Liberation Act. Of $10 million appropriated for the opposition 
and for the prosecution of war crimes in FY 2000, nothing--nothing--has 
been spent.
    On Monday, representatives from the Iraqi National Congress met 
with Vice President Gore. Miraculously, on Tuesday, the administration 
announced that 140 INC men would be trained under the ILA. They also 
announced they would support an amendment we have in this year's 
foreign operations appropriations bill, giving $15 million to the INC 
for humanitarian deliveries into Iraq.
    This is the first time since the signature of the Iraq Liberation 
Act that we have seen someone in this administration galvanized to do 
something for the opposition. The usual routine we in the Congress hear 
is: ``can't do it, won't do it, don't want to do it, and don't like 
them anyway.'' Most memorably, General Zinni, the soon to be former 
Commander of Centcom, announced that the Congress was ``stupid to 
support the opposition.''
    Either Saddam is a long term threat, or he is not. If he is, then 
we must do something. Short of invading Iraq once again, we must 
support the opposition. The opposition is not a group of Girl Scouts, 
nor is it a group of Jeffersonian democrats. It is an agglomeration of 
very different people in different groups who have been crushed under 
Saddam Hussein for decades. They are the people willing to work with 
the United States to overthrow Saddam Hussein; they have the courage to 
come to us. They have been treated with complete contempt by this 
administration.
    To date the Vice President has done nothing for this group; maybe 
this week's meeting will mark a turning point, but maybe it's just 
politics as usual. We'll soon find out.

    Senator Brownback. With that, Mr. Perle, let me turn the 
floor over to you, and I appreciate again your attendance and 
presentation here at this meeting.

STATEMENT OF HON. RICHARD N. PERLE, FORMER ASSISTANT SECRETARY 
     OF DEFENSE FOR INTERNATIONAL SECURITY, WASHINGTON, DC

    Mr. Perle. Thank you very much, Senator. Thank you for 
including me in these hearings and, perhaps more important, 
thank you for holding these hearings. It sometimes takes longer 
than we would wish to see policies adopted and, even when they 
are adopted and become the law of the land, it sometimes takes 
much longer than we wish to see them implemented. That clearly 
is the situation we are now in with respect to the Iraq 
Liberation Act and the repeated expression by the Congress in 
both Houses in support of the strategy for the liberation of 
Iraq--a strategy very different from the one that now 
constitutes administration policy.
    The word ``policy'' is probably an overstatement in 
describing the administrations attitude toward Iraq. Paralysis 
is probably more appropriate. The administration describes its 
policy as one of containment, and on any number of occasions 
administration spokesmen have expressed their satisfaction at a 
policy that has kept Saddam, as they sometimes put it, in a 
box, powerless, ineffective, unable to act.
    The evidence, however, is overwhelming that during the 
lifetime of this administration Saddam's regime has become 
stronger and not weaker, has exercised more independence of 
action than before and, while the administration is happy to 
describe the policy as containment, it is fair to observe that 
what was once a regime inspected by international inspectors is 
a regime no longer so inspected.
    The inspections that provided the principal means by which 
we could judge Saddam's effort to acquire weapons of mass 
destruction has come to an end, despite the fact that the 
administration's own announced goal preceding the bombing 
campaign against Saddam was the restoration of inspection 
programs that were terminated unilaterally by Saddam.
    Saddam posed a clear and unambiguous challenge. We failed 
to meet that challenge. If we are able to resume inspections in 
Iraq, it will be the product of a negotiation with Saddam 
himself, and I cannot help but observe that any inspection 
regime to which Saddam agrees and in which he exercises a 
virtual veto over who is to do the inspecting and under what 
circumstances cannot be effective.
    Saddam will not agree to an inspection regime that has any 
reasonable prospect of uncovering his covert program to acquire 
weapons of mass destruction. The fact that he feels free to 
choose between this inspector and that, giving the approval to 
one who he believes will be pliable in denying approval, to one 
who he believes will not, is an indication of how weak and 
ineffective we have become.
    If anyone is in a box, it is not Saddam Hussein. It is the 
American administration. Not only has the inspection regime 
which is vital to our comprehensive understanding of what 
programs Saddam has underway been shattered--even if a 
reasonable inspection regime could be put in place we have now, 
owing to the long period in which no inspections have taken 
place, we have lost much of the data base upon which any 
reasonable intelligence operation must be based.
    Everything that could be moved has been moved. Whatever 
knowledge we once possessed about where to look has now been 
taken from us, and we are now back, if we were able to return, 
looking for a very small object in a very large territory. The 
prospects of success are very limited.
    But not only has the inspection regime been shattered; the 
political support that has sustained the one constant element 
of administration policy, which is the sanctions now in place, 
has been declining rapidly. The coalition that was once arrayed 
against Saddam is in a shambles. Among the former coalition 
partners, even some of our close allies now take the other side 
and are eager to see the sanctions lifted. Increasingly the 
world has come to believe that the victim of the sanctions is 
not Saddam Hussein but innocent civilians, men, women, and 
children in Iraq.
    I think it is very important to be clear on this point. 
Saddam has manipulated the perception of the impact of the 
sanctions and has it entirely within his power to bring 
significant relief to the civilian population of Iraq. Much of 
the money that has been made available for humanitarian 
purposes has not been spent, and will not be spent, as long as 
Saddam can prevent it in order to build pressure against the 
continuation of the sanctions by creating the impression that 
only the elimination of the sanctions can restore health to 
Iraqi women and children and deal with the humanitarian 
catastrophe that we now see.
    So I in no way relieve Saddam Hussein of responsibility for 
that humanitarian tragedy, but at the same time I think it is 
important to observe that the sanctions themselves are of 
declining effectiveness. They are increasingly circumvented. 
Saddam has found ways around the sanctions in collaboration 
with others, including some of his former enemies.
    There is a steady flow of resources into Iraq that are at 
Saddam's disposal. The sanctions, among other things, have 
actually solidified his total control over the Iraqi economy, 
and so no one can argue that the sanctions are of such force 
and weight and effectiveness that we can count on them to bring 
down Saddam's regime. They simply will not, and any belief to 
the contrary is sadly mistaken.
    At any rate, the sanctions will not last forever, because 
support for them is eroding, and when they are finally lifted, 
as they almost surely will be, Saddam will expect, and with 
good reason, a political victory of enormous proportions. He 
will emerge in the Gulf as the leader who stood up to the 
United States and the Western world and prevailed. At that 
point I believe the region will be a much more dangerous place, 
and the manifest failure of American and allied policy--and 
here it is largely a failure of American leadership--will be 
evident to everyone.
    But by then it will be too late, and I fear that the 
administration calculates that too late will come after the 
next Presidential election. The evidence is overwhelming that 
their short-term objective is to get past the election without 
a more visible catastrophe, and that is probably their long-
term objective as well.
    Mr. Chairman, in contrast to this policy of drift, 
deterioration, and ineffectiveness the Congress has--in a 
series of actions that I believe are without precedent--
empowered the administration to organize and assist the 
internal opposition to Saddam Hussein.
    As one would expect, a ruler like Saddam Hussein, who rules 
by terror, who rules by murder and assassination, has 
accumulated over the years a great many enemies. In fact, the 
number of victims is so large that they alone would constitute 
an inchoate revolutionary force. So the issue for the West in 
my view is how best to organize that opposition, to assist it, 
to forge it into an instrument by which Saddam's murderous 
regime might be brought down.
    The term ``freedom fighters'' is an entirely appropriate 
term, and the Iraqi National Congress has for many years been 
organized along lines expressing support for democratic 
principles. It has been comprehensively organized, affecting 
all elements of Iraqi society. It has deserved and indeed 
received the support of the Congress of the United States and, 
as you well know Mr. Chairman, as a leader in this effort, the 
Congress has appropriated money and other resources to assist 
the INC.
    We should be very clear about the administration's attitude 
toward this approach. It is one of opposition--flat out, 
unmitigated opposition--and at every turn the administration 
has sought to frustrate the congressional intent by withholding 
the resources that you have offered to them to assist the Iraqi 
National Congress and even, I am sorry to say, by acting in a 
manner calculated not to unite the opposition but even to 
divide it.
    There is very substantial evidence that the administration 
and various elements of the executive branch have actually 
worked to exploit those differences that one would expect to 
find in any coalition group, differences that make it more, not 
less difficult to achieve the goals of the Iraq Liberation Act, 
which is the formation of a coherent opposition.
    I know this because, like others in this small town, I 
frequently discuss this matter with officials from the 
administration, sometimes in rather formal debate and other 
times in casual conversation, and I think I can say to you that 
I have never had a conversation with any official in the 
administration on this matter in which those officials did not 
state that they thought the policy reflected in the Iraq 
Liberation Act was a mistake, and should not be implemented, 
and they have given expression to that conviction by dragging 
their feet endlessly, and by failing actually to do what the 
Iraq Liberation Act calls upon them to do.
    As you rightly observed, in the last 24 hours the Vice 
President, candidate for the Presidency, has met with the Iraqi 
National Congress and once again made pledges of support to the 
Iraqi National Congress.
    I do not know whether he took his earlier pledges of 
support off the word processor and changed the date, or whether 
he drafted a new set of talking points, but I do know that in 
August 1993 the same Vice President, who was not then a 
Presidential candidate, gave a very full expression of support 
to the Iraqi National Congress.
    That preceded by almost 3 years a military operation by 
Saddam against the Iraqi National Congress in which a great 
many people working with the United States, and who had placed 
trust and confidence in the United States were executed by 
Saddam Hussein. I do not recall the Vice President on that 
occasion taking any action whatsoever to keep the commitment 
that was made then.
    Hope springs eternal, and maybe this time he means it. But 
it is still, it seems to me, a commitment that falls far short 
of the kind of vigorous program that would give the policy 
behind the Iraq Liberation Act a decent chance for success.
    Let me conclude by saying what I think is required in this 
case. It is the administration's conviction that attempting to 
assist the INC is unwise, because the INC is incapable of 
taking on Saddam Hussein. They are weak and disorganized, 
according to officials in the administration, including 
officials who report directly to the Vice President and others, 
always in private in the latter case.
    Let me say that all oppositions that lack external support, 
that lack a strategy with resources behind it that give it a 
reasonable prospect of success, are by definition weak, so it 
means nothing to say that an organization lacking the 
fundamental support it needs is going to be weak. It is 
inevitable.
    As to the disorganization, I think the INC has come a very 
long way in organizing itself and you see in this room a number 
of representatives of the INC from all elements of Iraqi 
society who have come together in what is a very impressive 
display of unity.
    Now, there are differences, to be sure, and the differences 
will always be larger when the prospects of success are 
smaller. The point is that it is well within the power of the 
United States--as a world leader and as a source of the 
resources necessary to mount an effective campaign against 
Saddam Hussein--to assist this opposition in a way that will 
assist its achieving cohesion and effectiveness, and it is 
within our power to help them design the plans by which they 
can effectively challenge Saddam's regime.
    So the pessimism of the administration, the defeatism of 
the administration, the paralysis of the administration is, in 
fact, a self-fulfilling prophesy. If they say long enough and 
often enough that the opposition is weak and divided; if they 
withhold the support that the Congress has urged them to 
extend, then they can, of course, weaken the opposition and 
prevent it from achieving reasonable and attainable objectives.
    So I hope very much that we will see a change in 
administration policy. It will probably take a new 
administration to accomplish that. I would be quite happy to 
see a new administration in any case, but one of the reasons 
for preferring a new administration is that we look forward to 
one that implements the law now on the books that requires 
support for the liberation of Iraq by those people who have 
been willing to run the risks and organize themselves to bring 
that about.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Mr. Perle, for those 
thoughtful comments. I look forward to some question and answer 
between the two of us.
    Dr. Chalabi, I am pleased to see you again, although I am 
sorry it is here. I had hoped at this point in time that you 
would be in Iraq, organizing, pushing and prodding for the 
overthrow of the Saddam Hussein regime.
    It has been some years ago that you first met with Members 
of Congress and we first expressed our support for your efforts 
and put forward resources to do that, and we certainly all 
thought by this point in time we would not still be meeting in 
hearings in Washington, DC, but that we would be pressing 
forward in your homeland with the coalition you have put 
together.
    Yet we are here, and I want to hear what you have to say 
about the progress on implementing the Iraq Liberation Act. You 
might also take a moment, if you would, to introduce the other 
people of the INC that are here, and what groups they 
represent, so that we could have that for the record as well.
    Dr. Chalabi.

   STATEMENT OF DR. AHMAD CHALABI, MEMBER OF THE PRESIDENCY 
       COUNCIL, IRAQI NATIONAL CONGRESS, LONDON, ENGLAND

    Dr. Chalabi. Thank you, Senator Brownback. Let me first 
introduce my distinguished friends and colleagues, the leaders 
of the Iraqi National Congress.
    First, I will start with Mr. Javal Talabani. Mr. Talabani 
is a leader of the Patriotic Union of Kurdistan, who has worked 
long and hard for the cause of democracy and human rights in 
Iraq, and rights of the Kurdish people in Iraq. He is a well-
known leader internationally, and he has been of great support 
for the Iraqi National Congress and a tireless fighter.
    Mr. Riyadh Al-Yawer is an Iraqi diplomat, and he is a man 
who has been working against tyranny and dictatorship in Iraqi 
for over 4 years now, and he has worked tirelessly to help 
unite the INC.
    Seyid Kadhim Al-Batatt, who came yesterday from Iraq, he is 
from the south. He is a leader of the opposition, the armed 
opposition to Saddam Hussein in the south, and he came here to 
put his case and the need for assistance before the American 
people.
    On my left, my very good friend and colleague in fighting 
Saddam Hussein--in March 1995 we were together on the 
battlefield--Mr. Kusrat Rusol, who has been Prime Minister of 
Iraqi Kurdistan, and he has been fighting Saddam. He has 
personally suffered losses. His two children were killed by 
Saddam's bombs, and he himself suffered from wounds inflicted 
on him by Saddam. He has demonstrated a remarkable tenacity in 
continuing to fight Saddam, and his ability to do so is 
unchallenged.
    Dr. Latif Rashid. He is a member of the Patriotic Union of 
Kurdistan, and has been working with the INC for a long, long 
time. He was a founding member, and has made immense 
contributions to our fight against Saddam Hussein.
    Mr. Hoyshar Zibari, a member of the Democratic Party of 
Kurdistan. He is a founding member of the Iraqi National 
Congress. He has fought Saddam in battles for many decades now, 
and he has personally suffered family losses due to Saddam's 
activities, and he has been a person who has worked to help us 
unite the INC and restore it to its current status.
    I am sorry to say that Sharif Ali bin Hussein, Sheikh abu 
Hidah, Sheikh Mohammed Mohammed Ali have had to go for a TV 
interview with the Voice of America, but they, both of them, 
Sharif Ali is from the former royal family of Iraq, and his 
presence with us gives a sense for the people of Iraq that they 
look back with nostalgia to the days of the monarchy, when 
there was much more freedom, much more democracy than now, and 
he has been working very hard with us as a colleague to restore 
democracy in Iraq.
    Sheikh Mohammed Mohammed Ali is a leader of the Islamic 
movement in Iraq, and has been a victim of Saddam, and he is a 
founding member of INC, and has worked very hard with us all 
those years.
    Senator Brownback. Very good. Welcome, all of you, and 
thank you for coming here.
    Dr. Chalabi. Thank you, Senator Brownback.
    This is the third time I have testified before the Senate 
Foreign Relations Committee as the representative of the Iraqi 
National Congress and the Iraqi people. Each time, it is a 
greater honor. I am joined here today by the entire leadership 
of the Iraqi National Congress, and I am proud to bring you our 
united message to the U.S. Government.
    Unfortunately, on this occasion I am the bearer of bad 
news. Since my last testimony a year ago Saddam Hussein has 
become a greater threat to the Iraqi people, to the Middle East 
region, and to the interests of the United States. Saddam's 
dictatorship is based on three pillars, money, foreign support, 
and terror. On all three fronts, he is resurgent.
    Manipulation of the oil-for-food program, illegal smuggling 
of oil, and extortion of the Iraqi people are now providing 
Saddam with billions in cash for internal repression and 
external aggression. His intelligence service is resurgent.
    In the past 2 weeks General Najib el Sadahay, a member of 
the Iraqi National Congress Central Council and the leading 
commander in the Iraqi Army, has received a videotape of the 
rape of one of his relatives in Baghdad by the intelligence 
service in an attempt to intimidate him. Many others have 
received that recently, but they have not chosen to speak out. 
He had the courage to do so, and I want to bring this to your 
attention now.
    There are now massive investments in nuclear, chemical, and 
biological weapons programs unrestricted by United Nations 
inspections. Saddam succeeded in throwing out UNSCOM.
    Foreign governments, including those of United States 
allies such as Qatar, Bahrain, and the UAE, have all restored 
full diplomatic relations with the Iraqi dictatorship in the 
past few weeks, providing Saddam's weapons acquisitions and 
terror networks with unfettered access to the outside world. He 
has large-scale intelligence operations going on right now in 
the UAE, including procurement of prohibited materials and 
smuggling them into Tehran. Russia, France, and other 
significant countries such as Italy are working for Saddam's 
interests on the international stage.
    Saddam's internal terror continues to destroy our people. 
His abilities for external aggression are increased as a result 
of his increased funds and his increased foreign diplomatic 
access. Even so, however, Saddam remains vulnerable. Inside 
Iraq, he is continuously challenged by the Iraqi people, united 
in their hatred of his tyranny.
    In the north, in Iraqi Kurdistan, Saddam's authority is 
almost nonexistent, extending only to intelligence operatives 
and paid agents. In the north, Iraqi National Congress member 
parties administer over 50,000 square kilometers of Iraqi 
territory independently and in opposition to Saddam. This was 
our base until Saddam attacked our base in August 1996 and 
killed our people.
    Southern Iraq is in a state of latent revolution punctuated 
by increased armed rebellion against the regime. In the 
audience today is Seyid Kadhim Al-Batatt, a leader of the Iraqi 
National Congress' southern resistance to Saddam's regime. He 
left Iraq this weekend to bring us news of the fighting and a 
plea for U.S. protection and support.
    In Baghdad, Saddam is continuously challenged. His security 
force is only able to suppress, not preempt frequent and large 
scale uprisings against his authority.
    It is this universal Iraqi opposition to Saddam Hussein 
which the Iraqi National Congress embodies, and which is the 
only avenue toward peace in Iraq, a peace which can only be 
secured by Saddam's overthrow and the establishment of a new 
popular and democratic Federal Iraqi Government.
    The benefits from Saddam's overthrow are clear. The Iraqi 
people will be free, free to govern themselves, free to cherish 
their children, free to employ their talents for good. The 
region will be free, free from the fear of Saddam's war-making, 
free from Saddam's terrorism, and free from the threat of 
Saddam's inhuman weapons of mass destruction, and the United 
States as the sole super power will be free from its excessive 
military commitments arrayed against a megalomaniac dictator 
who survives only on the indecision and the contradictions of 
the United States and international policies, which leads me to 
my central point.
    Saddam's future, the future of the Iraqi people, and the 
future of the Middle East are dependent on the actions of the 
United States. It is an indisputable fact, if the United States 
is committed to Saddam's overthrow and the establishment of an 
Iraqi democratic government, it can happen, and happen quickly.
    If the United States is not committed, our struggle for 
freedom will be long, painful, and bloody, both for the Iraqi 
people and the world. The Congress of the United States has 
recognized this fact and moved decisively against Saddam by 
overwhelming bipartisan majorities in both the House and the 
Senate, duly signed by the President. Congress has appropriated 
funds, provided constitutional authority, and ordered military 
support to the Iraqi National Congress.
    The Iraq Liberation Act, the centerpiece of these 
congressional efforts, is historic legislation. In the ILA for 
the first time the United States has overtly committed itself 
to the overthrow of an illegal dictatorship and to support for 
the establishment of a democratic government in its place. The 
Iraqi people are forever grateful.
    The Iraq Liberation Act is United States law. President 
Clinton signed the ILA on October 31, 1998. On November 15, 
1998, he made the ILA the centerpiece of his Iraq policy. Yet 
despite bold words and professed commitment, almost nothing has 
been done. There has been virtually no military drawdown. Less 
than $20,000 from a $97 million authority. There has been 
virtually no financial support. Less than $100,000 actually 
given to the INC.
    This inaction is unfortunately part of a bitter history for 
the Iraqi National Congress' relations with the United States. 
In 1996, the Iraqi National Congress was abandoned to Saddam's 
invasion of northern Iraq despite U.S. guarantees of protection 
not only to the INC but to the 3\1/2\ million Iraqis living in 
the area.
    Since that time, the INC has routinely been disparaged by 
administration officials from the NSC, the CIA, the State 
Department, and the Department of Defense, and while blaming 
the victim may provide temporary political cover for betrayal 
of U.S. interests, ideals, and commitments, it has done little 
for the confidence of the Iraqi people or Iraq's neighbors.
    Despite this record, the INC still looks to the United 
States for leadership, confident that the American people are 
with us against Saddam, and we are encouraged by the progress 
we have made in the last few days. Monday's meeting with Vice 
President Al Gore was very successful, continuing a long record 
of support for the Iraqi people's interests.
    Senator Gore was one of the first U.S. officials to condemn 
Saddam's genocide against the Iraqi Kurds in 1988. I first met 
him in 1991, and he was instrumental in the development of U.S. 
support for the INC at that time. In 1993, he received the INC 
in Washington and again advanced our struggle against Saddam.
    Since that time, he has been one of the strongest voices 
for the interests of the Iraqi people in the United States and 
internationally. As he begins his Presidential campaign, we 
welcome his clear calls for Saddam's overthrow and his 
forthright assertion that peace in the Middle East is 
impossible while Saddam remains in power.
    Similarly, we welcome his actions this week as Vice 
President. U.S. commitment to military training for the INC 
under ILA authority is a promising step in the right direction, 
as is yesterday's announcement of U.S. support for the INC 
humanitarian relief projects in Iraq. With Vice President 
Gore's sponsorship we expect speedy progress and tangible 
results.
    Nonetheless, we cannot rely on rhetoric. Our task is too 
urgent, and the need of the Iraqi people is too great. Our 
proposal for the $8 million in fiscal year 2000 State 
Department economic support funds appropriated to the INC is on 
the administration's desk and has been since November. If it is 
approved before the end of this month we can begin humanitarian 
relief projects within 45 days and begin broadcasting 
operations in less than 30 days.
    Our preliminary request for material and training under the 
ILA have been submitted since February. If accepted by the end 
of this month, effective INC military units, intelligence 
teams, and humanitarian aid workers can be operating in 
coordination with United States support by the end of August. 
We need these U.S. actions immediately, and we are counting on 
the word of the Vice President to deliver them.
    The United States faces a clear choice. Sanctions, bombing, 
and containment are not a sustainable policy. Either Saddam 
must go, and go quickly, or he must be accommodated. If he is 
accommodated he will quickly develop nuclear weapons and become 
the dominant military power in the Gulf. If he is overthrown, 
Iraq can become the peaceful and prosperous country which is 
the interest of its people, the region, and the world.
    Thank you.
    [The prepared statement of Dr. Chalabi follows:]

                Prepared Statement of Dr. Ahmad Chalabi

    Thank you Senator. This is the third time I have testified before 
the Senate Foreign Relations Committee as the representative of the 
Iraqi National Congress, and the Iraqi people. Each time it is a 
greater honor. I am joined here today by the entire leadership of the 
Iraqi National Congress and I am proud to bring you our united message 
to the United States government.
    Unfortunately, on this occasion, I am the bearer of bad news. Since 
my last testimony a year ago, Saddam Hussein has become a greater 
threat to the Iraqi people, to the Middle East region, and to the 
interests of the United States.
    Saddam's dictatorship is based on three pillars: Money, foreign 
support, and terror. On all three fronts he is resurgent.
    Manipulation of the oil for food program, illegal smuggling of oil, 
and extortion of the Iraqi people are now providing Saddam with 
billions in cash for internal repression and external aggression--
including massive investments in nuclear, chemical and biological 
weapons programs, now unrestricted by United Nations inspections.
    Foreign governments, including those of United States allies such 
as Qatar, Bahrain, and the UAE have restored full diplomatic relations 
with the Iraqi dictatorship--providing Saddam's weapons acquisition and 
terror networks with unfettered access to the outside world. Russia, 
France and other significant countries such as Italy are working for 
Saddam's interests on the international stage.
    Saddam's internal terror continues to destroy our people, and his 
abilities for external aggression are increased, as a result of his 
increased funds and his increased foreign diplomatic access.
    Even so, however, Saddam remains vulnerable. Inside Iraq, he is 
continuously challenged by the Iraqi people--united in their hatred of 
his tyranny. In the north, in Iraqi Kurdistan, Saddam's authority is 
weak, extending only to intelligence operatives and paid agents. In the 
north, Iraqi National Congress member parties administer over 50,000 
square kilometers of Iraqi territory independently and in opposition to 
Saddam.
    Southern Iraq is in a state of latent revolution, punctuated by 
increasing armed rebellion against the regime. In the audience today is 
Seyid Kadhim Al-Batatt, a leader of the Iraqi National Congress' 
southern resistance to Saddam's regime. He left Iraq this weekend, to 
bring us news of the fighting and a plea for U.S. protection and 
support.
    In Baghdad, Saddam is continuously challenged, his security forces 
only able to suppress--not to preempt--frequent and large scale 
uprisings against his authority.
    It is this universal Iraqi opposition to Saddam Hussein which the 
Iraqi National Congress embodies and which is the only avenue towards 
peace in Iraq--a peace which can only be secured by Saddam's overthrow 
and the establishment of a new, popular, and democratic Iraqi 
government.
    The benefits from Saddam's overthrow are clear: The Iraqi people 
will be free, free to govern themselves, free to cherish their 
children, free to employ their talents for good. The region will be 
free, free from the fear of Saddam's war-making, free from Saddam's 
terrorism and free from the threat of Saddam's inhuman weapons of mass 
destruction. And the United States, as sole superpower, will be free 
from its excessive military commitments arrayed against a megalomaniac 
dictator who survives only on the indecision and contradictions of 
United States and international policies.
    Which leads me to my central point. Saddam's future, the future of 
the Iraqi people, and the future of the Middle East are dependent on 
the actions of the United States. It is an indisputable fact, if the 
United States is committed to Saddam's overthrow and the establishment 
of an Iraqi democratic government it can happen and happen quickly. If 
the United States is not committed, our struggle for freedom will be 
long, painful and bloody--both for the Iraqi people and the world.
    The Congress of the United States has recognized this fact and 
moved decisively against Saddam. By overwhelming bi-partisan majorities 
in both the House and the Senate, duly signed by the President, 
Congress has appropriated funds, provided constitutional authority and 
ordered military support to the Iraqi National Congress. The Iraq 
Liberation Act, the centerpiece of these Congressional efforts, is 
historic legislation. In the ILA, for the first time, the United States 
has overtly committed itself to the overthrow of an illegal 
dictatorship and to support for the establishment of a democratic 
government in its place. The Iraqi people are forever grateful.
    The Iraq Liberation Act is United States law. President Clinton 
signed the ILA on December 31, 1998. On November 15, 1998, he made the 
ILA the centerpiece of his Iraq policy.
    Yet, despite bold words and professed commitment, almost nothing 
has been done. There has been virtually no military drawdown, less than 
$20,000 from a $97 million authority. There has been virtually no 
financial support, less that $100,000 actually given to the INC.
    This inaction is unfortunately part of a bitter history for the 
Iraqi National Congress' relations with the U.S. In 1996, the INC was 
abandoned to Saddam's invasion of northern Iraq despite U.S. guarantees 
of protection--not only to the INC but to the 3.5 million Iraqis in the 
area.
    Since that time, the INC has been routinely disparaged by 
adminstration officials from the NSC, the CIA, the State Department and 
the Department of Defense. And, while blaming the victim may provide 
temporary political cover for betrayal of U.S. interests, ideals and 
commitments, it has done little for the confidence of the Iraqi people 
or Iraq's neighbors.
    Despite this record, the INC still looks to the United States for 
leadership, confident that the American people are with us against 
Saddam. And we are encouraged by the progress we have made in the last 
few days.
    Monday's meeting with Vice President Al Gore was very successful--
continuing a long record of support for the Iraqi people's interest by 
Mr. Gore. Senator Gore was one of the first U.S. officials to condemn 
Saddam's genocide against the Iraqi Kurds in 1988. I first met him in 
1991 and he was instrumental in the development of U.S. support for the 
INC at that time. In 1993 he received the INC in Washington and again 
advanced our struggle against Saddam. Since that time, he has been one 
of the strongest voices for the interests of the Iraqi people in the 
United States and internationally. As he begins his presidential 
campaign, we welcome his clear calls for Saddam's overthrow and his 
forthright assertion that peace in the Middle East is impossible while 
Saddam remains in power.
    Similarly, we welcome his actions this week as Vice President. U.S. 
commitment to military training for the INC under ILA authority is a 
promising step in the right direction, as is yesterday's announcement 
of U.S. support for the INC's humanitarian relief projects inside Iraq. 
With Vice President Gore's sponsorship we expect speedy progress and 
tangible results.
    Nonetheless, we cannot rely on rhetoric. Our task is too urgent and 
the need of the Iraqi people too great.
    Our proposal for the $8 million in FY 2000 State Department 
Economic Support Funds appropriated to the INC is on the 
administration's desk and has been since November. If it is approved 
before the end of this month, we can begin humanitarian relief projects 
within 45 days and begin broadcasting operations in less than 30.
    Our preliminary requests for material and training under the ILA 
have been submitted since February. If accepted by the end of this 
month, effective INC military units, intelligence teams and 
humanitarian aid workers can be operating in coordination with U.S. 
support by the end of August.
    We need these U.S. actions immediately and are counting on the word 
of the Vice President to deliver them.
    The United States faces a clear choice. Sanctions, bombing and 
containment are not a sustainable policy. Either Saddam must go, and go 
quickly, or he must be accommodated. If he is accommodated, he will 
quickly develop nuclear weapons and become the dominant military power 
in the Gulf. If he is overthrown, Iraq can become the peaceful and 
prosperous country which is the interest of its people, the region and 
the world.
    Thank you.

    Senator Brownback. Thank you, Dr. Chalabi, for that strong 
statement. I have a vote that is on on the floor. I thought 
what we could do is have a couple of questions and exchange, 
and then take a short break and come back.
    I am curious. You said opposition actions in the south 
continue on a regular basis and are growing, and that you had 
news directly from the south. Could the individuals here from 
the south inform us of what is taking place there? Would it be 
possible?
    Dr. Chalabi. He can easily speak, Senator, if you wish.
    Senator Brownback. Could he here for a couple of minutes 
before I go vote and take a short break? I would be very 
interested to hear what is taking place in the south now. We 
get regular information out from the north of what is 
occurring, but not so much from the south.
    If you would, identify yourself and state what is taking 
place in the south as far as opposition to Saddam.
    Dr. Chalabi. He is from the southern marshes. He identifies 
himself among other fighters from the south. Dr. Hassan will 
translate.
    Mr. Al-Batatt [as translated]. There is no secret in what 
Saddam is doing inside Iraq as far as crimes against humanity 
and against the Iraqi people. There has been no outrage in 
history that has not been committed by Saddam, Saddam's crimes 
against humanity and ecology and everything that has been 
created in this world. He has committed crimes against his 
neighbors as well as against his people and against humanity.
    The draining of the marshes in Iraq caused destruction both 
to the ecology and to the animal and feed stock as well as the 
fish and the humans who live in the area.
    Senator Brownback. Can I ask what is going on in opposition 
to Saddam in the south?
    Mr. Al-Batatt. All Iraqi peoples suffer from Saddam's 
actions. They are in opposition. We fight Saddam in the marshes 
of Iraq that have been drained but have been liberated, and the 
last battle was on 15 May of this year in the northern area 
near Basra. However, we fought alone, and we did not get any 
aid to help us fight to destroy Saddam and his forces.
    I am sorry to say that the U.S. Government that has claimed 
support for human rights and humanity in the world and has 
taken upon itself the responsibilities--nobody forced it to--to 
protect the Iraqi people and even the Iraq Liberation Act, 
unfortunately American aircraft fly over us, as with our being 
continuously bombarded by Saddam's forces, and that to us 
implies what is happening is not reality.
    We are an uprising in Iraq and the whole Iraqi people are 
in opposition to Saddam, but we need weapons, and other support 
such as radio stations and food support.
    Senator Brownback. Thank you very much for the updated 
information of what is taking place. I appreciate that greatly.
    We have a vote on the floor, and I am going to have to go 
over to vote. I will be back in 10 minutes and will be able to 
walk over and back in that period of time, if you could stay 
with us for a few minutes.
    Mr. Perle, Dr. Chalabi, I have a number of questions, 
particularly Dr. Chalabi for how your meeting with the Vice 
President went, and whether he pledged any new assistance, 
direct U.S. assistance, whether he made any specific offers of 
assistance and any timetable in which those offers of 
assistance would be forthcoming, because I would like to know 
if there were any specifics that were promised at that meeting 
with the Vice President on Monday.
    So I will be back within 10 minutes. We will stand in 
recess for 10 minutes.
    [Recess.]
    Senator Brownback. I will call the hearing back to order. 
We do have another vote scheduled shortly, so what I want to do 
is get through a couple of key questions for Dr. Chalabi about 
the meeting with the Vice President and for Mr. Perle, any 
thoughts he might have on the future administration, if it is a 
Republican administration, if it is a Bush administration, how 
might they deal with Iraq and the INC and the Iraq Liberation 
Act.
    Dr. Chalabi, would you please illuminate us on the 
specifics from the meeting with the Vice President and any 
particular pledges of assistance, and timetables for that 
assistance to the INC?
    Dr. Chalabi. The Vice President, we wrote him a letter. We 
wrote all the candidates a letter on January 21 requesting 
meetings. The Vice President answered on February 8, and we had 
the meeting on Monday, on 26 June.
    In that meeting, the Vice President made a very strong 
statement that he does not believe there can be peace in Iraq 
or the Middle East while Saddam remains in power. He said he is 
committed to the Iraq Liberation Act, and it is the cornerstone 
of U.S. policy toward Iraq. He said he will help us get rid of 
Saddam, and that is the United States' position.
    We made some specific requests. We asked first that the 
United States would change the rules of engagement of American 
aircraft so that Saddam's forces, poised to attack Iraqi 
civilians in the south and the north, in the liberated areas in 
the north, could become legitimate targets. This is especially 
poignant, in light of the statement of Seyid Kadhim Al-Batatt 
before you now about Saddam's oppressing the people.
    We also requested that the United States would reverse the 
ecological disaster from the drying of the marshes. This can be 
done.
    We requested that the United States would help us establish 
an international commission which would have access to the oil-
for-food funds so that they can be spent for the benefit of the 
Iraqi people rather than sit in the bank, as they are now. The 
balance is in excess of $8 billion now. Saddam refuses to spend 
it.
    We want to take the idea of relief for the Iraqi people 
away from--either give Saddam more resources or lift the 
sanctions, that is not the way to do it. Giving Saddam more 
resources is tantamount to deprivation in Iraq.
    We also ask that the United States affirm what is in the 
Iraq Liberation Act, that they would help the Iraqi people 
integrate into the international community and help lift the 
sanctions as soon as Saddam is removed and there is a 
democratic government.
    We asked for all of those and we asked, of course, for a 
full implementation of the Iraq Liberation Act. The Vice 
President said they would help us with training. We have 
submitted names, and he said he would help us with training 
speedily. He said by the fall they will train all those people.
    Senator Brownback. Let me ask you about that, train all 
those people. There was mention of about 115.
    Dr. Chalabi. We have submitted two lists, one 21 and the 
other 120.
    Senator Brownback. Train to do what?
    Dr. Chalabi. The training is restricted to seven areas, all 
of them nonlethal.
    Senator Brownback. So it is nonlethal training these people 
would be submitted to?
    Dr. Chalabi. Yes. Some of the training is useful, such as 
logistics, communications, and communications security for 
military operations, but there is no lethal training.
    Senator Brownback. Why was he resistant to the lethal 
training?
    Dr. Chalabi. We do not really understand, Senator. There is 
resistance in the administration to provide lethal training. We 
have some theories, but we do not really know why.
    Senator Brownback. But he pledged to you that by this fall 
there would be some 140 INC people trained in nonlethal areas, 
some of these areas you would find useful and others you do not 
particularly understand, and you do not understand the reason 
for the resistance to lethal training?
    Dr. Chalabi. We do not. The Iraq Liberation Act is meant to 
liberate Iraq. You cannot liberate Iraq by treating wounded 
people. We need to liberate Iraq by fighting Saddam, and that 
is what we need.
    We need all the assistance we can get in terms of weapons, 
because there are tens of thousands of fighters fighting Saddam 
or confronting Saddam now in the north. Saddam was about to 
attack the area in late May this year, and he massed troops. 
The Kurdish forces, if they were given some antitank weapons, 
they can resist that.
    In the south, Saddam bombards them with artillery and he 
attacks them with tanks. If they have some antitank weapons, if 
they have any kind of communications equipment, antitank 
weapons, some kind of weaponry that can confront the superior 
armor and artillery of Saddam, he will lose control of the 
area.
    The Iraqi army is not fighting really in the south. They 
are forced and coerced into making these movements, but there 
are many, many generals and many officers who left Saddam's 
army and are now sitting in the liberated areas in northern 
Iraq ready to join training for the Iraq Liberation Act now, 
but they are sitting there with no assistance and no prospect 
of going anywhere, and they are wondering why.
    Senator Brownback. What is the administration's resistance 
to providing any sort of antitank weaponry to the Iraqi 
National Congress, or the people that are fighting against 
Saddam? Why would they not provide that equipment?
    Dr. Chalabi. Well, it is lethal and they say they are not 
giving lethal equipment, Senator, it seems to me.
    Senator Brownback. Did they give you a specific reason as 
to why they would not provide lethal assistance?
    Dr. Chalabi. Yes. They say that we are not ready and we do 
not want you to jump into confronting Saddam and get killed in 
the process.
    Senator Brownback. In the period we have had the Iraq 
Liberation Act, a period of 2 years, that they have said you 
are not ready, they will not provide any assistance or training 
in lethal weaponry or any assistance or training at all yet?
    Dr. Chalabi. Senator, the idea of the Iraq Liberation Act 
is to enable us to make us ready to fight Saddam. That is the 
whole purpose of the Iraq Liberation Act, to enable us to train 
and to equip us for this purpose. We really do not understand 
what is the thinking.
    There is another excuse saying the regional countries 
object to this, that they do not want us trained, but our 
experience with the regional countries is, they ask, is the 
United States serious? Why are they not implementing the law?
    Senator Brownback. I ask the same question. For how long 
have we had this available to be trained, to provide this 
equipment to you, and that it has not occurred.
    Dr. Chalabi. Indeed. I think we have now close to 18 months 
since the Iraq Liberation Act has been passed. We work very 
hard. We established--we demonstrated time and time again the 
unity of the Iraqi National Congress, and we have written many 
times to the administration with everybody requesting 
implementation and assistance.
    Senator Brownback. Over that period of 18 months, what 
training has been offered to the INC?
    Dr. Chalabi. We have so far--they have given us a syllabus 
from the Pentagon of courses, which include civil-military 
affairs. Three people were trained on civil-military affairs 
back in November, and that is the cost of the $20,000, the cost 
to train them.
    Other courses which were offered were field medicine, 
repair of equipment. Communications has not been offered yet. 
They say they are going to offer it. They are offering a war 
crimes training. This would be useful, we feel, in the 
collection of evidence and pursuing Saddam, but again that is 
nonlethal. They have offered training in public affairs, 
speaking and communications, and writing press releases, and 
also in terms of giving press conference and addressing the 
media.
    Senator Brownback. And that is the extent of the training 
that has been offered to you over the 18 months?
    Dr. Chalabi. Indeed, that is what has been offered.
    Senator Brownback. And the administration continues to say 
you are just not ready to go up against Saddam, but we are not 
going to provide you the means to get ready to challenge 
Saddam.
    Dr. Chalabi. That is basically the sum of it.
    Senator Brownback. Well, I am terribly disappointed from 
when we started this process, and we have continually pressed 
the administration and nothing is forthcoming, and it strikes 
me as mostly just a stall of where we are going to play this 
game out to the end of the administration and we are not going 
to do anything legitimate or real, just enough to provide press 
cover that we are actually trying to do something here, and 
then nothing happens.
    Dr. Chalabi. Senator, I would say to you that we need to 
work with the United States on a plan of action which will have 
a military component to get rid of Saddam quickly. We are not 
here to make civil war in Iraq. We are here to make a military 
force to provide Iraqi army units a measure of assurance that 
there is United States support and they will join us.
    This is very important to note. The Iraq Liberation Act is 
designed to help us create this force so that it can become a 
catalyst for all the forces fighting Saddam to join us. We need 
that plan now. We need to work it, and this fiction that this 
boogie man, that the opposition is not united, must be put 
behind us now.
    Senator Brownback. How did the Vice President react to the 
request for the change in the rules of engagement for U.S. 
aircraft to be able to target massed military operations that 
Saddam has, particularly in the south? How did he react to that 
proposal?
    Dr. Chalabi. He did not comment on it immediately, but we 
were told he has today in the Pentagon, that this is under 
study.
    Senator Brownback. It is under study, but no timetables 
were given?
    Dr. Chalabi. No, there were no timetables given.
    Senator Brownback. Mr. Perle, I want to direct a question 
to you. You have worked in the administration before, know your 
views on foreign policy, and particularly have some discussions 
with the Republican presumptive nominee, George Bush. How would 
he react? What would he do on dealing with Iraq?
    Mr. Perle. Governor Bush has said that we should, and he 
would, fully implement the Iraq Liberation Act. I think we all 
understand what that means. It means a serious and sustained 
effort to assist the opposition with a view to bringing down 
Saddam's regime. I am confident that when the Governor says 
that would be his policy, he means what he says.
    I came to Washington 31 years ago, and I must say that in 
that period I have not seen a sustained hypocrisy that 
parallels the current administration's public embrace of the 
Iraq Liberation Act and its dilatory tactics aimed at 
preventing any progress from taking place under that act.
    That will not be the case in a Bush administration, and I 
am absolutely convinced that if the Governor held the view that 
the current administration holds, which is one of opposition to 
the ILA, he would have the courage of his convictions and state 
it openly, and he certainly would not sign into law a piece of 
legislation that he had no intention of implementing.
    If the administration--the current administration--is now 
prepared to change its policy, and I must say it remains to be 
seen, there are some things they could do immediately that 
would be persuasive. They could begin by reassigning Frank 
Ricciardone, who has been designated as the liaison with the 
Iraqi National Congress, and who has been engaged principally 
in the delaying tactics that have produced the result you just 
heard about. That is, 2 years and no action. He should be given 
a useful assignment and removed from his current position, 
because nothing is going to happen under his sponsorship.
    Second, the administration could appoint one official, just 
one at a senior level who believes in the goals and objectives 
of the Iraq Liberation Act and who would honestly seek to 
implement the law as the law has been written and approved.
    I cannot, as I look through the list of administration 
officials responsible for this policy, find a single official 
who is sympathetic to the goals and objectives of the Iraq 
Liberation Act, so we should not be surprised to find that even 
these most recent promises disappear into the upper atmosphere 
as soon as the spotlight of attention is removed.
    This hearing, and I hope you will hold subsequent hearings, 
is very important for focusing attention on these pledges, 
these promises, and these commitments. If you are able to do so 
early in the fall, I would hope that you could look back and 
say, now, what has happened since the last promises were made?
    And I hope that this time there will be some real progress 
to report, but I must say to you that unless the strategy is to 
bring down Saddam by inducing fatal laughter, the idea of 
training in civil military relations and the writing of press 
releases is not the way to advance the purposes of the Iraq 
Liberation Act.
    Senator Brownback. I agree. Well, thank you, gentlemen, 
both very much, and I want to once again plead with the 
administration to take the Iraq Liberation Act seriously, to 
implement it. They still have time to press forward with doing 
these things that they have promised, that they have stated 
time and again that they would do, and I am calling on the 
administration to do those in the remaining months of this 
administration.
    I would impress particularly on the Vice President to do as 
he has stated and to do far more. The training of 140 in 
nonlethal training I suppose is something, but it is not much, 
and I hope that they will do far more and far greater than 
that, along the lines of some of the things that you have 
articulated, Dr. Chalabi, that this should be reviewed and 
engaged with all speed.
    Thank you both very much for being here, and we may very 
well meet yet again this fall, though I hope not, and I hope 
that we have action taking place that we can be pleased about 
during the remaining months of this administration.
    This hearing is adjourned.
    [Whereupon, at 10:30 a.m., the subcommittee adjourned.]

                                   - 
</pre></body></html>
